<html>
<title> - ECONOMIC GROWTH AND JOB CREATION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                   ECONOMIC GROWTH AND JOB CREATION

=======================================================================

                             FIELD HEARING

                               before the

      SUBCOMMITTEE ON WORKFORCE, EMPOWERMENT & GOVERNMENT PROGRAMS

                                 of the

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                   NEWNAN, GEORGIA, SEPTEMBER 2, 2003

                               __________

                           Serial No. 108-34

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                                 _____

                   U.S. GOVERNMENT PRINTING OFFICE
                          WASHINGTON : 2004
92-797 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                      COMMITTEE ON SMALL BUSINESS

                 DONALD A. MANZULLO, Illinois, Chairman

ROSCOE BARTLETT, Maryland, Vice      NYDIA VELAZQUEZ, New York
Chairman                             JUANITA MILLENDER-McDONALD,
SUE KELLY, New York                    California
STEVE CHABOT, Ohio                   TOM UDALL, New Mexico
PATRICK J. TOOMEY, Pennsylvania      FRANK BALLANCE, North Carolina
JIM DeMINT, South Carolina           DONNA CHRISTENSEN, Virgin Islands
SAM GRAVES, Missouri                 DANNY DAVIS, Illinois
EDWARD SCHROCK, Virginia             CHARLES GONZALEZ, Texas
TODD AKIN, Missouri                  GRACE NAPOLITANO, California
SHELLEY MOORE CAPITO, West Virginia  ANIBAL ACEVEDO-VILA, Puerto Rico
BILL SHUSTER, Pennsylvania           ED CASE, Hawaii
MARILYN MUSGRAVE, Colorado           MADELEINE BORDALLO, Guam
TRENT FRANKS, Arizona                DENISE MAJETTE, Georgia
JIM GERLACH, Pennsylvania            JIM MARSHALL, Georgia
JEB BRADLEY, New Hampshire           MICHAEL MICHAUD, Maine
BOB BEAUPREZ, Colorado               LINDA SANCHEZ, California
CHRIS CHOCOLA, Indiana               ENI FALEOMAVAEGA, American Samoa
STEVE KING, Iowa                     BRAD MILLER, North Carolina
THADDEUS McCOTTER, Michigan

         J. Matthew Szymanski, Chief of Staff and Chief Counsel

                     Phil Eskeland, Policy Director

                  Michael Day, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              

                               Witnesses

                                                                   Page
Brady, The Hon. Keith, Mayor, City of Newnan, GA.................     3
Jones, The Hon. Nancy, Chairman, Meriwether County Commission....     5
Byrd, The Hon. Rubye, Mayor, City of Greenville, GA..............     6
Bell, Ed, Councilman, Thomaston, GA..............................     8
Heuber, Betsy, President, Thomaston-Upson Chamber of Commerce....     8
Gaymon, Mike, President, Columbus, GA, Chamber of Commerce.......    11
Purvis, Kip, Meriwether County Economic Development Authority....    14

                                Appendix

Opening statements:
    Akin, Hon. Todd..............................................    26
Prepared statements:
    Brady, Hon. Keith............................................    29
    Jones, The Hon. Nancy........................................    31
    Byrd, The Hon. Rubye.........................................    33
    Heuber, Betsy................................................    34
    Gaymon, Mike.................................................    36
    Purvis, Kip..................................................    39

                                 (iii)


                    ECONOMIC GROWTH AND JOB CREATION

                              ----------                              


                       TUESDAY, SEPTEMBER 2, 2003

                  House of Representatives,
        Subcommittee on Workforce, Empowerment,and 
                               Government Programs,
                               Committee on Small Business,
                                                         Newnan, GA
    The Subcommittee met, pursuant to call, at 3:20 p.m., in 
the Council Chamber, Newnan City Hall, 25 LaGrange Street, 
Newnan, Georgia, Hon. Todd Akin [Chairman of the Subcommittee] 
presiding.
    This is actually an official meeting of the U.S. House of 
Representatives. It might seem a little bit odd, because you 
would think that would happen inside the Beltway, you know, 
inside Washington, D.C., but committees can call official 
meetings of the House and have those hearings anywhere in the 
country that they want to. And this is an official U.S. hearing 
of the Small Business Committee and it is the Subcommittee on 
Workforce Development.
    Our Committee has a broad amount of authority to be able to 
conduct hearings and particularly to try and gather information 
which we record and it becomes part of the official record of 
the House. And that is what we are gathered to under take this 
afternoon.
    Now it is obvious that we do not hold committee hearings in 
every town all over the country, but there is some logic in us 
picking a place to go. In this particular situation, our 
Subcommittee was approached by your Congressman Gingrey and he 
made the case that it was important to come here and to take a 
look at what was going on and to have a good handle on what is 
happening in terms of jobs, economic growth and workforce 
development. So that is the topic of our discussion today. That 
is the reason for the meeting and quite honestly, I would not 
have come down here--I am from St. Louis originally--and 
although my brother graduated from Georgia Tech, I am not 
liable to fly out of my way to go to Georgia if it had not been 
for your Congressman, who has been very earnest in taking a 
look at the development and growth of all of his I gather 
somewhat unique district that has been drawn for him. And he 
does care about the people and the jobs and the conditions of 
the economy here. So he asked us to come down and that is the 
reason why we are here today.
    And I also would not have come if it had not been for the 
fact that your Congressman votes the same way he talks. You 
know, politicians sometimes sound very good back home, but you 
get them too far from home and they start--like a Victrola 
record, they start skipping and they do not seem to act the 
same way that they did when they were talking back home. That 
is not the case with your Congressman. He, very early on, has 
earned the respect of my colleagues, that people that have been 
around the House longer than he has, as not only a hard worker, 
but a man of his word and somebody who really has a genuine 
interest in his constituents and in our economy and in the jobs 
and the wellbeing of the people of your district as well as our 
entire nation. So it is a real treat for me to welcome 
Congressman Gingrey. You are not actually technically a member 
of the Subcommittee, but in these kinds of situations are 
invited by the Chairman to effectively operate as a member of 
the Subcommittee.
    Because we have gotten off to a little bit of a later start 
because of some traffic situation, we are not going to go into 
the details of some of your voting record. I would tell some 
stories about your good votes, but this is a guy that 
understands something about taxes and the importance of getting 
the economy going. He has had some great votes that way. And 
also some things in the area of health care, to try to 
provide--make sure that people of our communities have access 
to good health care and reining in a bit some of these extreme 
lawsuits which have made it almost impossible for many doctors 
to keep their practices open. That is something that a former 
doctor I think understands probably better than the Chairman 
does this afternoon.
    But with that, it is typical and appropriate that I would 
recognize other members of Congress and that you is you, Phil, 
for an opening statement.
    Mr. Gingrey. Mr. Chairman, thank you very much. I 
appreciate you coming into the 11th Congressional District when 
you could still be enjoying these last one or two days in your 
home in Missouri. We all, of course, have to be back in 
Washington tomorrow. But it means a great deal to me, Todd, for 
you as Subcommittee Chair of the Small Business Committee, to 
come to Newnan, Georgia, to Coweta County.
    When we have an opportunity to have elected officials, 
members of the Chamber, economic development folks in this 11th 
Congressional District to come and testify and to make sure 
that the Committee understands, that the full House understands 
what we are going through here in west Georgia, if you will. 
West Georgia, of course, has become northwest Georgia and 
southwest Georgia and the bits and pieces of 17 counties in 
between, but I proudly represent part of Coweta County and the 
City of Newnan, my wife's home, and just a block away from 
where we sit, Billie--formerly Billie Ayers--and I were married 
33 years ago. We have raised four wonderful children and now we 
are proud grandparents of three grandchildren. So to have these 
hearings here in Billie's home in Newnan, where her mom still 
lives as well as her sister and brother-in-law, really means a 
lot to me.
    This district, the 11th, is not an affluent district, Mr. 
Chairman. We have some pockets of affluence, certainly the City 
of Newnan is one of them, a wonderful place to live and raise a 
family. Rome, Georgia, in Floyd County, up in the northwest, is 
doing well. I represent a third of Cobb County and Cobb County 
is certainly no Tier 1 county, but the part of the county that 
I represent, just as the part in Muscogee that I represent, is 
struggling. We have lost a lot of jobs, we have lost a lot 
manufacturing jobs in particular, and I know the witnesses will 
testify to that effect, each describing the unique stress that 
they have experienced in their own county, whether they are 
elected officials or members of the business community. They 
know and I am looking forward to hearing from them and moving 
forward and trying to do everything we can, Mr. Chairman, 
through your Subcommittee, through the whole Committee, 
Chairman Manzullo's committee, the Small Business Committee. I 
know that we are all concerned about the loss of these 
manufacturing jobs.
    So with that, Mr. Chairman, I look forward to hearing from 
the witnesses.
    Chairman Akin. Well, thank you, Congressman; and thank you 
very much for inviting me to come down and visit and to have 
this meeting.
    One thing that might be helpful for our witnesses, if you 
would turn your name tags around, it would be a little bit 
easier for this guy from out of town.
    [Laughter.]
    Chairman Akin. What I am going to do is I am going to be 
asking each of you that are witnesses to make a five-minute 
statement. You have, if there is no objection, the option if 
you would like, to submit a written testimony for the record. 
But just to kind of keep the meetings on track and to stay on 
the main points, what we usually do is to ask each of you to 
run for five minutes, or less if you need to, but not too much 
more. My staff assistant, Thomas, here, he kind of makes funny 
faces and waves his hands when you get too close to the end of 
five minutes.
    So we will go ahead and let each of you make a five-minute 
statement and then what we will do is come back and have a 
chance to ask some questions and some give and take during that 
time.
    [Mr. Akin's statement may be found in the appendix.]
    The first witness I would like to recognize here is the 
Mayor of the City of Newnan and that is the Honorable Keith 
Brady. Keith, five minutes, please, sir.

STATEMENT OF THE HONORABLE KEITH BRADY, MAYOR, CITY OF NEWNAN, 
                            GEORGIA

    Mayor Brady. Mr. Chairman, thank you. Chairman Akin, 
members of the Committee, I am Keith Brady, Mayor of the City 
of Newnan. Newnan, proud to celebrate its 175th year this year, 
has a population of approximately 20,000 people in the city and 
100,000 in Coweta County. The city offers residents small town 
charm, but also, with the close proximity to Atlanta, the 
conveniences of a big city. I am pleased to have the 
opportunity to speak to all of you today regarding 
opportunities for economic growth in the southern part of 
Georgia's 11th Congressional District.
    As we are all aware, small business and industry is 
essential to a city's prosperity and welfare of its citizens. 
Economic growth for Newnan faces three major issues: clean air, 
transportation and health care.
    The City of Newnan is always working to attract and 
maintain industry. We understand that 80 percent of new jobs 
are created due to the expansion of the current industrial 
base. When industries consider expansion, they must also 
consider the cost involved and the impact on the environment. 
This is most costly to these businesses in the non-attainment 
areas. We know that sometimes consideration is given to 
relocate to another county to avoid being in the non-attainment 
region. I am strongly in favor of clean air, but sincerely hope 
to move forward faster to a solution in regard to the 
environmental impact of industrial retention and expansion.
    I realize that 60 percent of the people living in our area 
commute to work each day. We need to identify their 
destinations and attract those businesses to this area. Given 
the chance to perform the same trade instead of working 40 
miles away, working in a building close to home cuts down on 
commute time, rush hour stress and automotive pollution.
    Transportation is also another concern regarding economic 
development. Our focus is moving our people, both movements 
within our city and outside of our city. For internal movement, 
the City of Newnan has been seeking federal and state funds in 
a desire for a public transportation system involving trolley, 
vans, et cetera. For people who do not have access to a 
vehicle, we must find a way to get them to work.
    I am also hoping to help relieve traffic congestion by 
adding interchanges on I-85. Ideally, the City and Coweta 
County would like to add two interchanges on I-85 at Poplar 
Road and I-85 at the industrial park. However, we have been 
told that the completion of interchanges takes approximately 
ten years. The population increase for Newnan and Coweta County 
could be drastic in five to ten years. There should be a method 
in place to speed this process.
    The issue of health care impacts every citizen, business 
and governmental entity. Currently, the most cost-effective and 
least taxing method of delivering health care is through group 
employer-provided plans. Health insurance premiums continue to 
increase with the rising cost of prescription drugs, the 
expense of new technology, medical malpractice insurance suits 
and the cost of uncompensated care. I would like to see efforts 
to enhance the affordability and availability of health care 
insurance for small businesses and their employees.
    For the business owner with a handful of employees, the 
rising cost of health insurance could be phenomenal and 
discouraging and therefore prohibitive to both growth and 
success. I would personally like to see new fundamental policy 
decisions aimed at better control of underlying costs.
    Again, we appreciate the opportunity to state our causes 
here today. We look forward to many discussions as we all 
develop new processes for the improved economic development for 
the State of Georgia.
    Thank you.
    [Mr. Brady's statement may be found in the appendix.]
    Chairman Akin. Mayor, thank you very much. I appreciate 
your keeping it right on time and you already raised a lot of 
interesting points, so I look forward to getting back to you 
with a question or two.
    Our second witness is going to be Ms. Nancy Jones, who is 
the Chairwoman of the Meriwether County Commissioners. Nancy, 
thank you very much for joining us today. We look forward to 
hearing your testimony.

 STATEMENT OF THE HONORABLE NANCY JONES, CHAIRMAN, MERIWETHER 
                       COUNTY COMMISSION

    Ms. Jones. Thank you, Chairman Akin, Committee members; it 
is a delight to be here and I thank you for that. Again, I am 
Nancy Jones and I am Chairperson of the Meriwether County Board 
of Commissioners.
    Meriwether County is a predominantly rural community, 
recently included in the metropolitan statistical area of 
Atlanta. This designation is a result of the high number of 
people commuting daily from Meriwether County into the Atlanta 
metro area. Of the 8,893 citizens in the county's workforce, 
4,727 commute outside the county, with 65 percent or 3,083 
commuting into the metro area. The commuting patterns and the 
nine percent unemployment rate within the county has 
contributed to the continuous closing of small businesses and 
industry in our area during the current economic recession.
    Meriwether County is considered a Tier 1 community by the 
Georgia Department of Community Affairs. This designation is 
reflected by the county's low levels of per capita income, high 
unemployment rate and high rate of illiteracy and high school 
drop outs. In fact, almost half of the population does not have 
a high school diploma and only seven percent of residents hold 
a bachelor's degree. These factors have contributed to 
Meriwether County's stagnant and declining economy.
    With the recent closing of a MeadWestvaco sawmill in which 
150 employees lost their jobs, the small retail economy 
continues to suffer. Restaurants, tradesmen, gas stations and 
corner grocery stores feel a negative impact when a significant 
employer such as MeadWestvaco closes its doors. In addition, 
Norfolk Southern is preparing to abandon its line running to 
Columbus, creating a domino effect which will negatively affect 
another large employer in our county, and that is Georgia 
Pacific.
    The amount of state and federal assistance received in our 
community is greatly appreciated, but does not scratch the 
surface in terms of actual need. Meriwether County does not 
have a countywide water or sewage system, which further hinders 
our ability to compete with other counties for business and 
economic development. The municipalities within the county have 
outdated water and sewer systems with limited capacity. Our 
ability to develop these systems is hindered by very slow-
growing tax digest while tight budgets stretch every dollar to 
the limit for the continuation of our existing services.
    In May and June of 2003, the county received serious flood 
damage by two flash floods. These floods have left seven of our 
roads and bridges closed to date, with an anticipated cost of 
replacement and repairs of over a quarter of a million dollars. 
Due to eligibility requirements, the county did not receive any 
federal funds to assist in these repairs and has yet to receive 
any state funds. Incidents such as these hamstring our ability 
to develop the necessary infrastructure needed to allow 
communities such as ours the capability to grown.
    Meriwether County has embarked on a journey to improve the 
educational level of our workforce. The county recently 
received a $500,000 community development block grant earmarked 
for construction of a workforce development center to hold 
classes taught by West Georgia Technical College. On the day it 
opens, at least 150 citizens will take part in the programs 
offered, with the anticipation of over 300 students in the next 
five years. The local community has seen the absolute necessity 
of this initiative and has donated $275,000 of cash and in-kind 
services towards improving the educational attainment level of 
our citizens, so existing and future businesses can access a 
qualified and trained workforce.
    As witnessed by this project, our rural community can 
recognize and can react to our shortcomings, but needs the 
assistance of federal grant programs to make them become a 
reality.
    Meriwether can be a thriving community for businesses 
instead of a struggling bedroom and an agrarian society, but 
real problems in such areas as rural health care, educational 
attainment and infrastructure development makes for a very 
challenging business environment in rural Georgia.
    I want to thank this Committee for their time and serious 
consideration and commitment to assisting small businesses and 
counties such as Meriwether.
    Chairman Akin. Nancy, thank you very much for your 
testimony. I appreciate that.
    Dr. Byrd, we wanted to go ahead and get started, so let me 
just give you a quick update on what we were saying. We were 
having the witnesses give a five minute testimony and then we 
will come back and ask some questions. Are you ready to give us 
a five minute testimony? The subject is basically about small 
business but what is going on in terms of the economic 
development of this area.
    Dr. Rubye Byrd is the Mayor of the City of Greenville. We 
will let you roll right along there then, Doctor.

     STATEMENT OF THE HONORABLE RUBYE BYRD, MAYOR, CITY OF 
                      GREENVILLE, GEORGIA

    Mayor Byrd. Thank you, Mr. Chairman, to the Committee on 
Small Business of the U.S. House of Representatives, 
Subcommittee on Workforce Empowerment and Governmental 
Programs. First of all, we would like to thank you for allowing 
us to come forward and do this testimony.
    As Mayor of Greenville, Georgia, part of this 11th U.S. 
Congressional District of the State of Georgia, I am honored to 
have this opportunity to testify before the Committee about my 
views on the prospect of economic growth and job creation. In 
addition, I will make very brief remarks on the needs of my 
community in light of the recent hardships.
    Now Greenville, is the county seat of Meriwether County, 
and it is strategically located in the heart of this county. 
This provides easy access to Interstate 85, it is located 
approximately 75 miles from downtown Atlanta and 65 miles from 
the Atlanta Airport. So therefore, with a constant increase in 
population, because of migration from Coweta, Troup and of 
course Muscogee Counties, the manpower is coming to 
Greenville--it is not there yet, but it is coming.
    We are poised for growth. With the coming of a county 
workforce center that I believe my good friend Commissioner 
Nancy Jones perhaps has talked about, to provide technical 
training to citizens, it will enhance the availability of 
employees and will assist the companies with having individuals 
with the skills to provide the services there. Therefore, 
industries and companies would be prone to come to Greenville 
because of its location, the new training program and the 
abundance of land.
    Right now, Greenville is very desolate. It has no industry. 
We just lost Mead, one of our number one companies that 
provided services to the city for a long period of time. 
Greenville has experienced a downsize since about 1994 when the 
waters were polluted by a Lanier plant that is part of a 
subsidiary company called Oxford Industries, which is a Fortune 
500 company. Therefore, with the pollution of the water, the 
inflow of money has been very, very little and so the city sits 
in dire need of industries.
    Greenville also has the capacity to provide water and 
sewerage to these large companies because of what happened with 
its water system. We ran lines to the LaGrange system and so we 
have an abundant supply of water to provide, because there are 
so many persons who commute between Atlanta and Columbus, new 
companies to provide jobs and economic development will be 
highly welcome.
    The Chamber of Commerce of course and the Meriwether County 
Industrial Authority--I see we have Mr. Kip Purvis here--will 
have a plethora of tax incentives and other attractive type of 
business development initiatives for everyone who is located or 
interested in relocating in Greenville, Meriwether County.
    The most important need of our area in Greenville is, of 
course, economic development, higher educational attainment 
levels, better housing, maintaining and restructuring the water 
and sewerage system that is old and antiquated. That was a 
segregated system until about 1972. That area was designed 
basically for white Americans in the area. And because African-
Americans ranked four times--than white Americans in the area, 
it has been a strain on that system and therefore it 
continuously has problems.
    We have annexed into our city approximately 150 acres of 
land for developers to build new houses ranging from $85,000 to 
$150,000. We assisted, of course, in helping to secure this 
grant that I am sure Ms. Jones talked about a few minutes ago. 
We also assisted in securing another grant to build a gated 
multi-family community which will include a swimming pool, 
computer labs and clubhouses.
    We are open in Meriwether County to all types of 
suggestions to help our area grow and prosper. We are getting 
together as one county, even though Greenville is the county 
seat, we are getting together with the best emphasis on the one 
county structure, and we all can benefit from it.
    Thank you, sir.
    Chairman Akin. Thank you very much, Rubye, appreciate your 
testimony here this afternoon.
    The next witness is Mr. Ed Bell, you are a Thomaston City 
Councilman--I think that is correct.
    Mr. Bell. That is correct.
    Chairman Akin. And then my understanding was that you and 
Betsy both have a similar--the same statement but you are kind 
of testifying together, so we will go with you first, Ed.

      STATEMENT OF ED BELL, COUNCILMAN, THOMASTON, GEORGIA

    Mr. Bell. Ms. Hueber will provide more facts and figures, 
but I will have some comments. Ms. Hueber is President of our 
Thomaston-Upson County Chamber of Commerce and the Director of 
our Upson County-Thomaston Industrial Development Authority.
    But I have a few comments. Having lived in Thomaston, 
Georgia, Upson County, one hour south of Atlanta, one hour west 
of Macon and an hour west of Columbus. Senator Russell said 40 
something years ago, in the heart of the golden triangle. When 
I moved there in 1945, as a stranger to start my business, it 
was in the heart of the golden triangle. Textile mills, B.F. 
Goodrich Company, largest tire cord manufacturing plant in the 
United States was running 24 hours a day. Thomaston Mills, we 
have slept under their sheets for years throughout this 
country, was running 24 hours a day. William Carter Company, 
making the baby clothes, was running well. Fortunately, I came 
at the right time, the business was successful.
    However, if you walk around Thomaston now and see the 
people who are unemployed, do not have a job. At the regional 
medical center, we have so many people without health insurance 
due to what Ms. Hueber will explain, some bankruptcies with no 
health insurance. It is sad.
    Tonight, I will go to a Council meeting and regretfully we 
will have to amend our budget for the year 2003. Why? One of 
the main reasons is sales tax collections are down. Why? People 
are not working, they are not buying and we are having to 
adjust it. We had three new police cars in the budget this 
year. Unfortunately we will not be able to purchase those cars. 
We have not replaced people, we are in a freeze. It is sad.
    And Ms. Hueber will tell you more about our situation in 
Thomaston-Upson County, but before I close, Upson County is 
27,000 people, the City of Thomaston, the county seat, is 
around 9000. We are proud of this community but we need help, 
and we will come back.
    Thank you.
    Chairman Akin. Thank you very much, Ed, for your testimony. 
And then Dr. Betsy Hueber please.

 STATEMENT OF BETSY HUEBER, PRESIDENT, THOMASTON-UPSON CHAMBER 
                          OF COMMERCE

    Ms. Hueber. Not doctor.
    Chairman Akin. Did I give you an official doctor here?
    [Laughter.]
    Chairman Akin. I do not have that authority. Otherwise----.
    Mr. Gingrey. It just means you do not make any money.
    [Laughter.]
    Ms. Hueber. Or have high insurance, right?
    Chairman Akin and Congressman Gingrey, thank you for having 
us here today. My name is Betsy Hueber and I serve as the 
President of the Thomaston-Upson Chamber of Commerce and 
Executive Director of the Thomaston-Upson County Industrial 
Development Authority.
    Our community of 27,600 residents has been extremely hard 
hit by the economic slowdown and the loss of the textile market 
to foreign competition. Thomaston lost its largest employer, 
Thomaston Mills, in June 2001, thus losing 1500 jobs, for a 
total of 3000 textile jobs since April 1999. With the closing 
of 102 year old Thomaston Mills came a $65 million loss of 
payroll plus health insurance and retirement benefits. 
Thomaston Mills also had its corporate headquarters located in 
Thomaston with 165 supervisory and management personnel and an 
annual white-collar payroll exceeding $9 million or an average 
or approximately $54,600 per job.
    We were successful in recruiting four new companies who 
located in 1.6 million square feet of former Thomaston Mills 
manufacturing facilities. While we have brought in new 
companies with Standard Textile, Atlantic Paper and Foil, ATD 
American and 1888 Mills, these four companies have created 
fewer than 350 new jobs to date and only 22 management and 
supervisory level jobs, with a combined annual local management 
payroll of less than one million dollars. This definitely has 
an impact on our per capita income. Further, the jobs that were 
created by these companies were offset in even greater numbers 
by declines in existing industries following the devastating 
events of September 11.
    With the loss of Thomaston Mills also came a major 
reduction in ad valorem tax revenues. Thomaston Mills was our 
community's largest taxpayer. In successfully recruiting the 
companies that have purchased the former Thomaston Mills 
buildings, we have seen values decrease by three-fourths of 
their former value, meaning a major reduction in ad valorem tax 
revenues.
    According to the Georgia Department of Industry, Trade and 
Tourism, Upson County's 2001 per capita income figure of 
$19,981 was less than the 2000 figure of $20,477. This occurred 
even while our regional, state and national figures increased. 
And currently our per capita income is almost $9000 less than 
that of the State of Georgia. Our unemployment rate continues 
to exceed that of the state, hovering in the seven to eight 
percent range, and we know that we continue to lose residents 
to other communities that do have jobs to offer.
    We were fortunate to recruit West Georgia Generating to 
Thomaston in 1999 and that company began generating power 
during peak times in June 2000. It was subsequently purchased 
by Mirant, which has now filed for bankruptcy. What this will 
do to our tax base is unknown at this point, but we are hopeful 
that this company, now Upson County's largest taxpayer, will 
continue to be a viable power generator and taxpayer.
    I say all of these things to give you some indication of 
the enormous economic difficulties facing Thomaston and other 
communities like us. The decline in textiles has been 
devastating and traumatic. While many of our people have gone 
back to school for additional training, they have not been able 
to find jobs. We also still suffer from the days when a person 
could drop out of school and get a job in the mill.
    Obviously an offshoot of these manufacturing job losses is 
the further loss of small businesses. Vacancies, resulting 
reduction of property values, increases in personal 
bankruptcies, all are the fallout of manufacturing job losses. 
Workforce development is a critical component and we continue 
to invest in our community. Our leadership has invested in new 
property for an industrial park and a speculative building is 
under development. But our workforce needs are many and the 
funding is small.
    The State of Georgia is also suffering from declines in 
revenues and important expansion projects for our local 
technical college, Flint River Technical College have not been 
placed on the approved list. The school needs space, 
instructors, marketing and recruitment funds in order to 
address these workforce deficiencies head on. A recent 
application to the One Georgia Authority to purchase former 
Thomaston Mills corporate office space was denied this month. 
The purpose was to create an adult education workforce training 
business incubator that would be a division of Flint Tech. 
Local government funds are simply not there for the purchase of 
this facility and federal EDA funding is incredibly cumbersome 
and unreliable, although we are pursuing that route.
    Even if our community were at peak performance in terms of 
skill levels, we would still have difficulty attracting new 
companies into the rural parts of Georgia. Have we learned 
nothing from NAFTA? We simply cannot compete with China, 
Indonesia and other countries and what happened in textiles 
will most certainly happen in other sectors. Indeed, it already 
is. In addition, we are supporting a lifestyle in foreign 
countries that we would not tolerate in our own.
    Further, the majority of projects that may be coming into 
the State of Georgia, which are admittedly good for Georgia, 
are merely consolidations from other states. It means we get 
the projects, but we also must provide incentives and that can 
be extremely difficult for our local elected officials, who are 
dealing with budget deficits of their own, to understand and 
support.
    Many of our economic expansions are coming from within our 
own existing industries, but there again, there is a problem. 
We have one company in Upson County seeking to expand and wants 
to defer payment for a period of two years until his new 
expansion of $2.5 million, 25 to 30 new jobs, begins to profit. 
He has an excellent record with his current company, but 
venture capital opportunities have seriously declined in recent 
years and the entrepreneurs who have the product and desire to 
expand are simply falling through the funding cracks.
    How can we correct this certain change in our economic 
wellbeing? Engage--and I mean really engage--our existing 
industries in the front end of company recruitment. They need 
to be proactive in dealing with local, state and federal 
officials through focus groups and an aggressive effort to find 
out what they think. Realistic input is critical in knowing how 
to address the global competition head on. We have begun this 
process locally by bringing our existing industry plant 
managers into an economic advisory council to create short and 
long-range economic plans for our community. But there is much 
to do--develop trending solutions, create a better 
understanding of the trends in the marketplace and develop 
solutions around this trending. How can we do that? Utilize 
teams of economic consultants and state development 
organizations to identify these trends and then include 
politicians in this process.
    It is also important for us to understand exactly where we 
are. What is happening with those people who lost their jobs in 
textiles or other manufacturing arenas? Did they find other 
work? Are they under-employed? Are they still without jobs? 
Have they redirected and developed new skills? How are they 
surviving?
    If we are to pursue new ways of developing jobs, then we 
have to have a guideline and a master plan in order to attack 
this issue.
    I thank you for this opportunity.
    Chairman Akin. Thank you very much, Betsy. I do not know 
with making the stumble over calling you Doctor, whether I made 
it clear that you are the Chamber President, IDA Executive 
Director of Thomaston-Upson County Chamber of Commerce. I just 
wanted to make sure you got your full title in here, even if it 
was not a doctor. Thank you for your testimony, and we also 
have another Chamber of Commerce President, Mr. Mike Gaymon 
from Columbus. Mike.

STATEMENT OF MIKE GAYMON, PRESIDENT, COLUMBUS, GEORGIA, CHAMBER 
                          OF COMMERCE

    Mr. Gaymon. Congressmen, thank you for the opportunity to 
speak to you about our perspectives on economic development and 
job creation.
    My name is Mike Gaymon and I am President of the Chamber in 
Columbus. Part of our responsibilities include the economic 
development and job creation of the six-county economic 
development organization known as the Valley Partnership. This 
is made up of Columbus as the urban center, with the other 
counties being a lot more rural and under-developed. While 
there is a great span of type of jobs that are feasible and 
differences in the kinds of businesses that would be desirable, 
the one element that is constant in all of these is that 
without a skilled trained workforce, only a small portion of 
the economic success that is desired will ever be reached.
    As you know perhaps, there are excellent examples of 
proactive workforce development efforts in Georgia that have 
been created. The Service Industry Academy was the first white-
collar training that was done by Quick Start and ICAPP program 
all began in Columbus. The key, however, to their successes 
were that they were business driven by business needs, not by 
academic needs.
    I recall that when we were working with TSYS on their 
possible expansion of 2500 new jobs, a statement that was made 
that helped to set the tone for what became the ICAPP program 
which has now been noted as one of the most successful models 
in the nation, was and I quote, ``you can change the course of 
history easier than you can change a history course.''
    That is not a slam on higher education, but it is a 
statement of truth in addressing workforce issues. We must find 
ways to provide incentives processes that are truly business 
driven. Most businesses know how to compete in their industry 
because they are doing it every day. What they need is for the 
resources to be available where they can use, tweak, twist and 
re-engineer to meet the business needs.
    The Service Industry Academy is another example of a 
business driven effort. We were able to get 20 companies to 
come together, focusing on their industry needs in the white-
collar area. They spent time qualifying the needs and then 
Columbus Technical College was brought in to hear and to ask 
questions. What followed was a process of many meetings focused 
on what business needed in deliverables. Over 90 percent of the 
graduating students in this program found jobs in the fields 
that they were trained to work in. The key to this success--
making sure that it was business driven. Finding businesses who 
want to be a part of bringing about real change in workforce is 
not a problem. Finding an environment where real change is 
welcomed and encouraged is a problem.
    My first suggestion is for Congress to look for ways to 
enhance programs I have just mentioned. Pouring money into 
systems or bureaucratic networks is not going to get the return 
on investment and focus that our business needs. We have been 
doing that for decades. New money may not be needed, but a 
redirect into programs that have a demonstrated success is 
strongly encouraged.
    The second issue concerns the area of free trade and the 
unbalanced playing field. A sawmill just announced its shutdown 
in this region, as you have already heard. I think you will 
find that a significant part of that decision was due to the 
loopholes that were allowed in the dumping of wood products 
here without having to pay certain tariffs and taxes creating 
an unlevel playing field.
    I support free trade. Contrary to some economic developers 
who seem to believe in building a wall around the United 
States--I believe that is short-sighted, very narrow and ill-
fated. Some businesses and industries cannot and will not 
compete. They have not automated their operations. Frankly, 
some of the former textile companies that are no longer here 
had not spent the necessary capital to upgrade, to modernize 
their equipment and they assumed that the business they had 
they would always have. Well, most of those companies are now 
gone and the buildings are being used for something else other 
than textiles.
    However, when Canadian firms can put finished lumber on the 
shelves cheaper than companies like MeadWestvaco, one of the 
leaders in the pulp and paper industry, can even cut the wood, 
something is wrong. Some of these loopholes, you know, have 
been fixed, but at what expense to our existing companies, who 
are no longer in business due to the thrust of free trade, but 
unfair loopholes. Will these jobs come back? Probably not.
    And how will we replace these jobs? With more $6 an hour 
retail jobs.
    When manufacturers can drive down their costs to literally 
pennies per dollar of cost and still not be able to compete, 
something is wrong.
    When companies have to compete with countries that have 
essentially zero environmental regulations, zero labor laws, 
full government sponsorship and even subsidized support to help 
them penetrate the U.S. markets, something is wrong.
    Recently, I was reading about the experiences of the 
president of a Georgia company who shared his story of trying 
to compete with China. Once he finished sharing the reality of 
what it costs to comply before any product is made, it was 
certainly just another example of how the field is much tilted 
in favor of imports from other countries. When he finished his 
presentation, he was presented a gift of a coffee cup. And of 
course, it was made in China.
    America seems to be caught up in service industry jobs and 
has forgotten the value of manufacturing jobs. Manufacturing 
jobs create additional jobs, unlike many of the other sectors 
of employees.
    Some companies deserve to be shut down, even though their 
employees do not deserve the impact. However, I believe the 
majority of companies have the entrepreneurial spirit and are 
ready, willing and capable of competing in a global economy. 
They will adjust their sails when the strong winds blow. They 
will create, change and adapt where they need to do so, but 
decisions like lifting the caps by the World Trade Organization 
in 2005 on China, for example, is an example of what free trade 
is not.
    The last area I would like to comment on is greater 
partnering with public and private sectors. Some of you 
remember UDAG funds. While there were certainly examples of 
abuse and misuse of UDAG, I believe that the major genesis of 
them was to provide a framework for the public and private 
sectors to join together to make an impact that was desired.
    As you know, right here in Georgia, we have 159 counties, 
second only to Texas. While I am not advocating that we 
dissolve some of these counties--that is for another subject 
during another lifetime perhaps, I am suggesting that there are 
examples of public/private partnerships that are working.
    Out of these 159 counties, I am sure that most of them want 
some kinds of jobs and want an increase in tax base. I believe, 
however, that is where it starts and ends, with just wanting. I 
do not advocate government giving money to everyone based on 
wants. I do support a targeted effort to reward those 
governments who have bitten the bullet, consolidated their 
governments and services. I do encourage incentives to enhance 
efforts that are truly regional in their focus beyond just talk 
and wants. I do think that making examples out of the 
leadership defies ways to form partnerships creating 
environments where jobs and capital can be returned, will many 
fold bring the initial investment incurred.
    If measurable standards are achieved, reward them. When 
other want-to-be's complain, let them learn from the pioneers 
who have found ways to move the egos, the turfs, the political 
barriers out of the way enough so the job can get done without 
worrying about who gets the credit.
    Thank you for this opportunity. You have a tough job. Part 
of our state and our nation rests upon your leadership. I know 
you do not take that responsibility lightly.
    God bless you and give you courage and strength. And I 
still believe we should ask God to bless America by letting us 
seek his will and do his will. Thank you.
    [Mr. Gaymon's statement may be found in the appendix.]
    Chairman Akin. Thank you very much for your testimony.
    Our last witness is Mr. Kip Purvis, President, Meriwether 
County Development Authority.

STATEMENT OF KIP PURVIS, MERIWETHER COUNTY ECONOMIC DEVELOPMENT 
                           AUTHORITY

    Mr. Purvis. My name is Kip Purvis, I serve as President of 
the Meriwether County Industrial Development Authority in 
Meriwether County, Georgia. Meriwether County is a rural 
community, located south of Atlanta and is currently included 
in the metropolitan statistical area of Atlanta.
    Currently, the unemployment rate for our community is at 
nine percent, almost one in ten people in our community are 
unemployed. This is attributed to the closing of several small 
businesses and industry in our area during the current economic 
recession. While parts of Georgia, primarily Atlanta, has 
enjoyed economic success during the last decade, Meriwether 
County has experienced general decline in the number of small 
businesses that are located in the area. Recently, as has 
already been mentioned, MeadWestvaco, operating a sawmill 
employing approximately 150, closed its doors. Norfolk Southern 
Railroad as a result is preparing to abandon the rail line 
running from this facility down to the Columbus area.
    The impact that business closings have had on our community 
are significant. Not only does it affect the unemployed, but 
also the small retailers who have provided services to these 
affected workers. Also, Georgia Pacific who has used the 
Norfolk Southern line will be affected in kind of a domino 
effect of Mead's closure combined with Norfolk Southern's rail 
abandonment.
    State and federal assistance that has been received in our 
community has been greatly appreciated. But the ability of a 
rural community to develop infrastructure required to encourage 
economic development is limited by declining or very slow 
growing tax digest as well as the cost and needs for services 
that local communities are required to provide its citizens. 
Unfunded mandates by both the state and federal government 
further hamstring resources and the ability for communities to 
develop. Stronger programs that provide support for small rural 
communities to develop infrastructure are needed to give these 
communities the ability to grow. Rural communities such as 
Meriwether County have not just been looking for handouts, as 
mentioned before also. Recently Meriwether County raised over 
$250,000 to assist in the construction of a workforce 
development center. The workforce development center will be 
located in Greenville and will help our citizens develop better 
job skills and hopefully make our community more competitive 
for quality economic growth. Also, the community has been 
considered as a potential location for a large manufacturing 
project.
    I would like to thank Congressman Gingrey for his interest 
and assistance in this particular project. This project would 
have a $1.3 billion capital investment, would have a dramatic 
impact on our entire region. The company, who would employ 2500 
and bring up to $300 million in investment from supplier has 
narrowed their choice to two communities. Unfortunately, this 
has Meriwether County competing with a much more developed 
community. This other county is much more urban and affluent 
and is further along with their infrastructure development than 
Meriwether. State incentives that focus on providing assistance 
to more rural communities have not been enough to help level 
the playing field for this project. This places Meriwether 
behind this other county or community and leaves us trying to 
find ways for a community with limited resources to compete.
    The benefit this local project would have on our local 
economy and in turn our small business community would be 
unbelievable. If there was potential state or federal 
assistance for a rural community that would help make them more 
competitive with better developed areas for these types of 
projects, then you might see a dramatic impact on rural 
economies and the small businesses in those areas.
    The challenges and problems facing rural health care, 
education and the issues I mentioned above make for a 
challenging business environment in rural Georgia.
    I would like to thank the Committee for their time and 
interest in helping small business and workforce development. 
Thank you.
    Chairman Akin. Thank you very much, Kip, for closing off 
here in the opening statements. Thank you all for your 
comments.
    I guess I would like to take the prerogative as the 
chairman to open up with one question.
    The rules of this question are I do not want to know the 
second or the third or the fourth most important thing you 
would do, I would like to know, if you were--and let us just 
say this Committee, we elevate its authority beyond the House, 
let us say we were actually the U.S. Senate and we could 
actually wave a wand and do it and we could just do one thing. 
What would be your recommendation for what we should do at the 
federal level to improve the overall business climate and to 
deal with a number of the different problems that you have 
talked about. You only get to choose one thing though, and I am 
going to let whoever would like to respond to that question--
and not everybody has to, obviously. But if you would like to 
comment on that, that would be very helpful for me.
    A number of things have been mentioned and I would like to 
see kind of your sense of the priorities.
    Ms. Jones. I do not mind going first.
    Chairman Akin. You just seemed like kind of a shrinking and 
retiring kind of person, Nancy.
    Ms. Jones. If I could wave a magic wand and I had that 
power, it would be that the money would come into Meriwether 
County for the infrastructure that was needed in order to 
attract business and industry. Meriwether County has I-85 
running through it, we do not have an interchange off of that 
interstate. It would be such an advantage to us.
    So those are the things, if I had to put it in priority, I 
would wave a magic want tomorrow and say send it to Meriwether 
County and we would be delighted to work with it.
    Chairman Akin. Thank you very much. Somebody else?
    Mr. Gaymon. Sir, I would respond back to my comments about 
free trade. We have a lot of companies that can compete and 
will compete, but the environment that they are placed under, 
before they can ever get to the start line I think puts them at 
a tremendous disadvantage. And I am not sure when you look at 
what some other countries are doing in subsidizing--we lost a 
$3 billion chip plant that would have located in Georgia, that 
would forever have changed Georgia. We lost it to Singapore. 
The government of Singapore subsidized that company to the 
degree that they were not able to put it here. There is no way, 
I do not think, that we can ever compete unless the playing 
field is really a more level playing field rather than one that 
right now I think for many industries is not.
    Chairman Akin. Thank you very much, Mike. That is one of 
the questions that we have, because we do have a chance to try 
and pass legislation and deal with things, and, you know, there 
are a number of different tools and that is one of the things 
that we debate and discuss, is how do you handle this, do you 
do it with sticking a bunch of tariffs on things or do you do 
it--one of the things being considered on this Small Business 
Committee and with the Armed Services Committee is that 
military purchases--we have been ramping up what we are 
spending in defense. Our defense had run down very badly about 
three, four years ago, so we're hitting that with a lot more 
tax money.
    Well, do we demand that more of the products that are 
purchased by the defense industry come from America? Now the 
defense people do not like that idea because they can get more 
bang for their nickel if they can shop all over the world for 
those products. The question is are we comfortable with having 
some very high tech shaft of piece of machining work or 
whatever it is come from a foreign country. We do not even have 
the capacity any more. Even though we design the equipment and 
everything, we cannot even build it here in this country 
because only that people that do the work go to some foreign 
country. So that is some of the tension.
    So the things I am asking you are things that are very real 
life, we are dealing with day in and day out. I appreciate your 
comments, Mike.
    Mr. Gaymon. Mr. Chair, if I might add, I know that you all 
have fixed some of the loopholes in lumber, for example, but I 
talked to the head of MeadWestvaco and he shared with me a year 
ago when Canada could just drill a hole in the wood and then it 
was able to be exempt from some of the tariffs and so forth. 
Those are the kinds of loopholes we are talking about. 
MeadWestvaco can compete, they have been competing, but when 
the field is so lopsided, you fixed that, I think, but there 
are many other industries that there are loopholes like that 
that make it very difficult. And it is not because it is not 
well intended, like I say, free trade should be free trade, but 
not unfair trade. Thank you.
    Chairman Akin. Let me just follow up then on that. How more 
specifically can you make sure that the--can other governments 
create those loopholes as fast as we can try and plug them? Or 
how do you deal with that? What sort of loopholes are you 
talking about?
    Mr. Gaymon. One example in lumber, they had finished 
product that they would drill a hole through and therefore it 
qualified under different standards, so Canada was able to put 
finished product here cheaper than Mead could even cut their 
own wood out in the timber fields. Something is wrong with 
that. And that loophole was fixed, so it was--I know that was 
fixed. But I know there are some other industries, we still 
have several foundries in our area----.
    Chairman Akin. Is that because they came under a different 
set of tariffs by drilling the hole?
    Mr. Gaymon. Yes, sir, because it was a finished lumber 
versus other lumber, because they did something to it.
    Chairman Akin. Yes.
    Mr. Gaymon. And once again, all well-intended. I think 
probably the best thing we can do is send folks like you all 
who understand that if businesses have a chance to compete, 
they will, and send people to Congress like you folks who do 
understand that we are going to help businesses compete, not 
with unfair, but give them an opportunity to compete.
    Chairman Akin. As I mentioned, that is part of the reason I 
came down here for Congressman Gingrey, because he has that 100 
percent record on all of these different issues. And we are 
very supportive of that, but I appreciate your comments, Mike.
    Other people want to take a shot at that question? If you 
had one thing to do, what would you pick?
    Mr. Purvis. Mr. Chairman, I guess, you know, there are a 
lot of things we could do, but I think, at least speaking for 
rural Georgia, we have--if you could see a more balanced 
allocation of resources. Granted, most of those resources in 
the past have bee focused on the urban areas, because they are 
the most populated, but in my opinion, I think if there was a 
more balanced allocation in the more rural areas, maybe it 
would help draw some people out of some of the urban areas and 
maybe help rural economies and at the same time help alleviate 
congestion in places like Atlanta, to the north of us.
    The one thing on free trade----.
    Chairman Akin. Can I make sure I understand what you are 
saying? Are you pretty much agreeing with what Nancy has been 
saying, that if you had a little more infrastructure, that you 
think that would really tip the balance?
    Mr. Purvis. Well, I just think, you know, it comes down to 
fundamentals for us. In a community with real limited 
resources, the ability to be able to develop infrastructure has 
just hamstrung us because we just do not have the resources to 
do it on our own. And while there is some assistance out there, 
there is not enough to really put us over the top for being 
able to develop the type resources we need, whether it is 
water, waste water treatment or whatever, to recruit quality 
growth.
    Chairman Akin. Thank you.
    Mr. Bell. Congressman----.
    Chairman Akin. You go right ahead, he's always interrupting 
what I am trying to think about.
    Mr. Bell I will comment on two items that not only would 
help the State of Georgia, our counties, but the nation, is 
tort reform. We have got to get that through Congress at a 
rapid pace. Medical malpractice, we hear so much on that but 
also the products liability, everything we use has a tremendous 
loading and the consumer is paying for it.
    The second thing----.
    Chairman Akin. You might be encouraged to know that your 
Congressman has voted in favor of that and we have got it 
passed out of the House, we have just got the other half to 
deal with and we will get it done.
    Mr. Bell. I have two Congressmen I can claim and one 
Senator--ex-Congressman, and that is Mac Collins and Saxby and 
Phil.
    My other comment, I told Ms. Hueber riding up here, taxes. 
That Ford pickup truck made in Texas, the workers on the 
assembly line paid income taxes, Ford Motor Company, all the 
vendors paid income taxes--the tax structure. For the Mercedes 
that comes over from Europe, there is no income tax on it 
because they have value-added tax. If it is exported, there is 
no tax. That makes us uncompetitive.
    True, many of the foreign companies are building 
automobiles but we must go, in my opinion, to a value-added 
tax, national sales tax, because they are cleaning our plow 
everywhere.
    Chairman Akin. Thank you very much for your comments on 
that. I was just a lunch at the Kiwanis, I believe, in Atlanta 
and just mentioned a number that really startled me, and that 
was that when I was a little two year old, if you had a mom and 
dad and two kids, the average family, and dad went out and 
earned a dollar bill. Of that dollar bill, he would pay three 
cents in direct federal, state and local taxes, three pennies 
of the dollar. About eight years ago, had mom and dad and two 
kids and dad goes out and earns a dollar bill. It is not three 
cents any more, it is 38 cents on the dollar.
    So just in my own lifetime, we have seen a jump in terms of 
the cost of government, how much government we are purchasing, 
from three cents to 38 cents. That says we are spending more 
for government than we are for food, clothing and shelter 
combined. We are spending more for government, the average 
American family, than we are for medical care and housing 
combined. That says we have a lot of government we are buying. 
And I understand the tax--and that is part of the reason why we 
have been working away at chopping some of those taxes back.
    Thank you very much. I know this is kind of a long question 
and I am cheating Phil out of some of his time here, he is 
going to throw something at me in a minute. But we will do one 
more comment and move along.
    Mayor Byrd. I would just like to say if you could wave this 
magic wand and make a different for us in Meriwether County, 
your topic of opportunity for economic growth and job creation 
is what we would like you to wave that wand to do, because that 
want just by itself would take in so much for rural America 
that Kip had spoken of. Over the years, I spent a lot of time 
with the U.S. Department of Education across this country and 
we find that rural America is the forgotten frontier, and 
because it is a forgotten frontier, your urban areas are the 
ones that continue to plague you with all kinds of problems of 
crime, health issues, people coming in that should not come 
in--just a number of things. But if this country would really 
look at this country, they would recognize that the country is 
really rural. America is rural. I have been over it through the 
trains, through everything, and it is a rural country. And all 
of the rural areas are suffering from the same things, the 
money is going to the big cities instead of the small towns.
    With this economic growth and this job creation, it creates 
a higher educational attainment, it builds nicer homes, you 
know, it makes the climate conducive for individuals to want to 
live in rural America. It does not matter if you are in Montana 
or in Florida or South Dakota, Alaska, wherever you are, it 
creates a better area.
    So if you could wave that magic wand, Mr. Akin, we would 
love for you to just wave it so that this whole thing about 
opportunity for economic development and job creation would 
help us so much as politicians. We could certainly sleep better 
at night, I know I could.
    Chairman Akin. So let me just make sure I understand what 
you are saying, Rubye, and I am going to go on and pass the 
question over to Congressman Gingrey.
    But what you are saying is you think that a combination of 
education, some money for development of infrastructure, 
particularly those two things, if those were funded in rural 
areas, that that would make a huge difference.
    Mayor Byrd. Make a huge difference.
    Chairman Akin. Thank you very much.
    Mayor Byrd. Thank you.
    Chairman Akin. Congressman.
    Mr. Gingrey. Mr. Chairman, thank you very much. And you 
know, as I listened to the witnesses, all friends of mine that 
I know well in this district, I cannot help but think about the 
fact that so many of our counties in this district are either 
Tier 1 or Tier 2. And the elected officials and those witnesses 
who are involved in economic development in the respective 
Chambers understand that better probably than any of us. But 
Tier 1 means you are a poor county. And the average household 
income for this 11th District, Mr. Chairman, 17 counties, not 
all whole counties, but seven are whole counties, is $37,000 a 
year. By comparison, where I live, in that portion of Cobb 
County, we have the poorer part of Cobb County in this 
district, but the Sixth Congressional District, Mr. Chairman, 
is the upper two-thirds of Cobb and north Fulton, and the 
average household income there is $76,000 a year.
    Some of you represent Upson County, some of you represent 
Meriwether County and some of you represent Columbus-Muscogee 
and Mayor Brady here in Newnan in Coweta. I think what has been 
pointed out by the witnesses is that it is a struggle, this is 
a struggle. While there are parts of this district that are 
doing well and maybe enjoying being a bedroom community of 
Atlanta and a lot of jobs are in Atlanta and it is kind of an 
easy commute, that is not true for so many of the counties and 
in thinking about what we have done with no child left behind 
in regard to education, which I am and I think most of the 
witnesses would agree is a good thing to try to make sure that 
no children get left behind. I think what I am hearing some of 
the witnesses say is there are parts of our country, and indeed 
this district, where communities are getting left behind, whole 
communities. No wonder the children are getting left behind.
    We are spending a lot of money on education and yet, you 
know, we are doing things in our cities like funding 
empowerment zones, I think Ms. Hueber talked about that a 
little bit and yet, you cannot help but wonder why some of 
these empowerment efforts are not directed more to our rural 
communities rather than our inner-city, where quite frankly, we 
sort of get mixed results on some of that money, some of those 
federal dollars that are being spent.
    Having said that, let me try to--I guess I could spend the 
rest of the time, Mr. Chairman, with lots of questions for the 
witnesses and I do not want to dominate either, so maybe we can 
go back and forth.
    But I did want to ask Mayor Brady, you had talked a little 
bit about the non-attainment status of Coweta County, which I 
wonder if that has resulted possibly in any loss of potential 
industry here in Coweta County.
    Mayor Brady. Well,l we do see on occasion that the 
industries that want to expand here have to take those rules 
into account, and of course, Mr. Purvis I think was talking 
about the Coweta-Meriwether County Industrial Park and that 
industrial park down there straddles the line, part of it is in 
Coweta County and part of it is in Meriwether County and that, 
quite frankly, was by design. When you cross that line, you are 
out of the non-attainment zone, you are into Meriwether County. 
We see that as a positive for our community to be able to 
partner with Meriwether and be able to move forward to try to 
attract industries to that area. So yes, I think it impacts 
companies' decisions that we do not even have an opportunity to 
talk to because they know we are in the non-attainment zone, so 
we never get that knock on the door.
    You know, companies that are out there now with Department 
of Industry and Trade and other brokers are smart enough to 
know what they are doing, what type of business they are in and 
what type of product they are manufacturing. And they simply 
just do not ever make that initial knock on the door.
    So to answer your question, have I seen them come and seen 
them go; not really. But what I am afraid of is that we never 
see them at all. We do not have a chance to talk to them. They 
just do not ever come to start with. But hopefully the 
partnership with Meriwether will resolve some of those issues.
    Mr. Gingrey. Thank you, Mayor.
    Mr. Bell, you and Ms. Hueber talked a little bit about of 
course what is happening in Upson County and Thomaston, 
Georgia. And I think it was not too long ago that Upson Lee 
High School probably was one of the top high schools in the 
State of Georgia, probably still is doing a heck of a job. But 
I am sure that it is a struggle, as you talk about losing your 
tax base and property taxes and business valuations, valuation 
of homes. You know, it is not growing, it is going in the wrong 
direction. And that certainly ultimately will have an adverse 
effect on the school system. And that unemployment rate, I 
think you mentioned what, seven or eight percent now.
    There are so many things that we want to try to do and of 
course this President and his economic growth and stimulus 
package is trying to do that and to incentivize some of these 
smaller businesses to grow and expand and get an opportunity to 
have more rapid depreciation for capital improvements. 
Hopefully that will try to create more jobs, but I think you 
said that just the closing of Thomaston Mills resulted in some 
1500 lost jobs and what, some 3000 lost jobs over the last two 
or three years, since 1999.
    What do you think we could do, as members of Congress, as 
members in the case of Chairman Akin, of this Committee, to try 
to enhance growth of jobs in your community?
    Ms. Hueber. Well, I want to say that we have sat here and 
sort of painted the doom and gloom picture of Thomaston and 
Upson County and it sounds like we have not attempted to bring 
about some degree of change and invested in our community. We 
have indeed done that. We passed special purpose local option 
sales taxes both for government and for school system, so we 
are making improvements in our community. We are continuing to 
invest in our infrastructure. We have some long range plans for 
things that we are doing, so we are not sitting back and going 
oh, woe is us, you know.
    But it is difficult. It is made much more difficult by the 
fact that not only have we lost these 3000 jobs since April of 
1999, we have also had to really reinvent our economy 
altogether, because at one time we were a textile community. We 
had 8000 people employed in the textile sector 20 years ago and 
today, we have fewer than 500 people employed in that sector. 
And at the same time, we have continued to see modest increases 
in population.
    That being said, you know, I think that it is easy for us 
to say oh, we need money. You know, I agree with Mike, the 
urban development action grant program was a wonderful program 
for our community. We had about $2 million presented to us to 
recruit two different companies in and those companies continue 
to thrive. One of them went from an initial employment of 150 
people, is now Quad Graphics and employs in excess of 600. So 
that investment of a million dollars by the federal government 
into Thomaston and Upson County made a huge difference in our 
economic base. I have said so many times, what if we did not 
have Quad Graphics in Thomaston. It would be devastating--
truly, truly devastating for us.
    You know, money is important, but it needs to be well 
placed. It also does not need to be so cumbersome to get to. It 
needs to be easier to access for companies who are in a growth 
market and who are able to identify areas that they can see 
increases in jobs and investment.
    So I do not think that we ever need to just willy-nilly 
throw money at projects, but I do think that it needs to be 
better directed and less cumbersome to secure.
    Mr. Gingrey. Thank you. And Mike Gaymon, I wanted to ask 
you a little bit, Mike, you commented about in the Columbus 
area, of course, Columbus is one of those few communities in 
the State of Georgia, but probably the only one in my district, 
that has bitten that tough bullet of consolidating city/county 
government and your school systems. And I would like if maybe 
you would comment a little bit on that. How is that going, has 
it been a success. If you would comment on that, I would 
appreciate it.
    Mr. Gaymon. Yes, sir. We consolidated in 1971, so we have 
been doing it a long time. The first time we tried, it failed. 
We had other communities come to Columbus and say wow, we want 
to consolidate and I think they think that just because we have 
consolidated, everybody is going to sit around and join hands 
and sing Cumbaya. It does not work that way. You have got to 
work at it, work at it, work at it.
    As you know, Congressman, we also have a regional Valley 
Partnership of six counties and two other cities, six and a 
half years old. The trust of the urban center and the rural 
center does not come easy, you have to work at it. Our regional 
efforts, it has been said, is maybe a model for some other 
people to look at, not that we certainly have invented it.
    We have determined in our region we have got to keep our 
hand on the wheel and not take our hand off the wheel, because 
it will end up in the ditch. Regional efforts will end up in 
the ditch. You do not have to do anything, it will get there by 
itself, from egos, turfs, you name it. I agree with Betsy, you 
know, it is not about money. I think it is about is there a 
will and a commitment to make it work.
    We have chosen to make consolidation work in Columbus. I am 
not sure it will work in a lot of areas, but I do know 
consolidating of services will work. I do know there are ways 
in which we can determine if you do not care who gets credit, 
it is amazing what happens. And I think there is a lot more 
that could be done with that.
    But I heard someone say the other day, whatever the 
question, the answer is a skilled trained workforce. You know, 
we have got one county working on education and we have still 
got major issues. I do not know how other counties do it with 
four and five school systems all trying to figure out how they 
do it. I think a skilled trained workforce is our ticket for 
economic success in rural Georgia or urban Georgia and we have 
got to find ways to work more I think on workforce development 
with a skilled trained workforce. Without it, I do not think 
all the money you can put into this county and this state and 
this region is ever going to reach the level of success that we 
need.
    Mr. Gingrey. Thank you, Mike. And of course, Columbus-
Muscogee is a big area and really very strong in many ways 
economically. And I guess the saving grace in that area is 
diversification and, of course, the fact of having Fort Benning 
and the home of the infantry and many other things. You do not 
rely just on some of these manufacturing jobs and nothing else. 
But I know of course with Swift Mills and the closing of that 
plant, certainly manufacturing has taken a pretty significant 
hit.
    I wanted to ask Keith and Ruby and Nancy all representing a 
Tier 1 county, Meriwether, I know you are suffering, I know the 
loss of 150 jobs with the closing of MeadWestvaco was quite a 
blow to you. You still have the Georgia Pacific plant, but you 
are worried about Norfolk Southern, keeping that rail line open 
to get that product and some of the things that they bring into 
the plant, to continue that processing of plywood is a great 
concern to you.
    What do the three of you think that we can do as members of 
Congress, that I can do as your Congressman, that Chairman Akin 
and the Small Business Committee of the whole Congress--what 
can we do at the federal level to help you. I think the 
Chairman mentioned at the outset name one thing, but you know, 
I want you to maybe emphasize what we can do to help the 
Meriwethers and the Talbots and the situation that Upson is 
getting into, that we can do to help you.
    Someone, I think maybe Mike had mentioned earlier in your 
comments about trade and NAFTA and situations in regard 
specifically to manufacturing jobs. And why we are losing some 
of them and some of these free trade agreements that have some 
loopholes and unintended consequences and look good and that 
sort of thing.
    I am thinking I guess in terms of I mentioned earlier about 
money that is spent on urban empowerment zones and trying to 
upgrade brownfields and part of our inner cities where there is 
a lot of blight and poverty and is that money well spent, and 
wondering about maybe redirecting some of these efforts to 
rural America and rural counties like Meriwether and Talbot.
    Mr. Purvis. Well, I think that--and I will go ahead--I 
think any efforts the Committee makes to make business more 
competitive--it is all about the bottom line, to ultimately 
make them more profitable, to do business in rural areas, is 
what is going to benefit us in the long run. You know, driving 
somebody around your community and showing them around--you 
know, I love where I live and everybody should love where they 
live, but they do not necessarily see it through our eyes when 
we take them around.
    But what does get their attention is their ability to turn 
a profit and to make a living. You know, they are all about 
doing community good, but when it really comes down to it, 
there is a profit motive there, and I think anything that can 
be done to help businesses be more competitive with urban 
businesses.
    Chairman Akin. We are about four minutes over time here, so 
I think I may cut it off at that point. If somebody else wants 
to make some additional comments, that is fine, I think we will 
be here for a little while.
    But I very much appreciate all of you coming in, your 
comments. I would hope that each one of you would recognize 
that some of what you are saying, some of the things you are 
dealing with are common all over our country. I think a lot of 
you know that anyway. And I do not usually use the phrase 
``feeling your pain,'' but Missouri has lost more jobs than any 
other state in the union, just in terms of raw jobs. We have 
lost more jobs than California did or New York did. So we have 
got our own problems. Of course different states have their 
policies and off that that affects and drives some of those 
numbers.
    I guess it is a little bit ironic that I am listening to 
you, but I am listening pretty hard because we have got our own 
situation back home and I certainly hope our state leaders 
would pay attention to the kinds of things that I am sure 
people in Missouri are telling them, the same as you are 
telling us.
    But certainly I have to say that from a personal point of 
view, my impression is very much I like to leave it, Kip, on 
your comments, you know, the bottom line of this thing is, it 
is about bottom line. The business has to make money. They can 
be benevolent, they can have good attitudes and all this kind 
of stuff, but they have got to make money. And ultimately all 
of us, it is our responsibility to make sure we create that 
environment in our country where people can make a profit so 
that our kids can get jobs and so we can pass on the kind of 
free country that America has always been.
    I will tell you, I have always loved this country so much, 
that is why I ran for public office. And one of the things that 
is special about America is this is a place where people can 
wake up sometimes and they realize that they have got some 
dream in their heart that they want to do. America is full of 
people that have crazy dreams and people tell them you cannot 
do it and it will not work, we specialize in proving those 
people wrong because this is a country that has been built one 
dream at a time by all kinds of great people going way back. 
And the people in your own community, you know people like that 
that just had some crazy idea and 10 years later, by gosh they 
are a millionaire, they were not even planning to be, just 
because they took something and had the courage to keep going 
on it.
    I think we have to realize the economy is down some. 
Federally, you may think boy, this war on terrorism is 
expensive or these tax cuts that Congressmen Gingrey and Akin 
have voted for, boy they are sure really hurting the overall 
financial balance, but you know, if you add the war on 
terrorism, the war in Iraq and all that, you add the tax cuts, 
everything all together, that is less than half of what it 
costs us when the economy is poor in this country.
    So that is what a lot of our attention is focused on, is 
trying to get out of that slump. We do know there are cycles to 
the economy and things, but some of that is brought on by the 
fact that we just have too much overhead that the government is 
costing. At least that is something we can work on.
    I know that you are all working in your communities and I 
have faith in America that we will meet this challenge as we 
have before.
    But thank you all so much for your attention and your time 
this afternoon, and God bless you all. Thank you.
    Mr. Gingrey. Mr. Chairman, if I might make just an 
additional couple remarks if we have a minute or two.
    Chairman Akin. Yes.
    Mr. Gingrey. Just in closing from my perspective, you know, 
the Georgia Expansion and Support Act that was created several 
years ago where we label our counties, Mr. Chairman, as Tier 1, 
2, 3 and 4, it just so happens that in the southern portion of 
this 17 county district, out of a total of nine of the counties 
that are either Tier 1 or Tier 2, seven of them are in the 
southern portion of this district. So we are struggling and 
that is why I mentioned about comparing no child left behind to 
an effort toward leaving no community behind. And I think you 
mentioned, Mr. Chairman, that tomorrow there will be a full 
Committee hearing in regard to laws which state how many 
government buildings have to be in a rural as opposed to an 
urban area. And I know you are going to be looking at the 
compliance with that law and the possibility of that helping to 
bring maybe some location of state government into the more 
rural areas. We know in Georgia for so many years everything 
has been right there surrounding the gold dome, where people 
suffer with traffic and congestion and non-attainment and smog 
and all these things, and I think that is something we can look 
at.
    And finally and maybe this is a little bit pollyanna, but I 
thought when MeadWestvaco had announced that they were going to 
have a temporary layoff, which as we now know turned into a 
permanent closure, because they were losing money on an 
operation in Meriwether County, why not show a little 
compassionate conservatism on the part of some of these 
companies, if their bottom line is pretty good and they are 
doing pretty well for their corporate executives and their 
stockholders, and yet maybe one little piece of their operation 
is struggling, to make a greater effort to work with that local 
community, to work with those 150 employees who probably would 
be willing to take a day off once a month or do many things to 
help them become profitable, and so some compassion to these 
rural communities and realize that that is where the need is 
and we do not need to be leaving them behind.
    So thank you, Mr. Chairman, for holding this Congressional 
hearing in my district, as you pointed out in your opening 
remarks how important it is to come and let the people know, 
the folks at this table, our witnesses, our Mayor, our 
Commission Chairman, other Mayor, our Chairmen of our Chambers 
and Economic Development Authorities how important it is and 
that we are listening, we are listening. And we are going to 
take this message back to Washington through you, Mr. Chairman, 
and through our other House colleagues.
    Thank you.
    Mayor Brady. Mr. Chairman, two remarks. I would like to 
make sure that we introduce State Senator Dan Lee, who has just 
come into the room and is in attendance at our meeting at this 
point. And on behalf of the witnesses here----.
    Chairman Akin. We pick on senators some, but we still 
appreciate you just the same.
    Mr. Gingrey. Dan, it is great to see you. One of my 
favorite colleagues in the General Assembly, and the Governor's 
Floor Leader.
    Mr. Lee. Thank you.
    Mayor Brady. And just on behalf of the witnesses here and 
the citizens of the City of Newnan, I want to say how much we 
appreciate you taking your time and traveling here from St. 
Louis, Missouri, and Congressman, we appreciate you being back 
in the district and taking the opportunity to listen to us. I 
think it is very important that you do these types of events 
and we appreciate your time here today.
    Thank you.
    Chairman Akin. Mayor, thank you very much. All the 
witnesses and one additional thank you, thank you for sending 
even senators like Congressman Gingrey, to help us out down 
there.
    Lord bless you all and the meeting is adjourned.
    [Whereupon, at 4:42 p.m, the Subcommittee was adjourned.]

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

                                 <all>
</pre></body></html>
